~~ ~

. +,. S"VIC~

                                         DEPARTMENT OF HEALTH AND HUMAN SERVICES

(~..,.,,~
     ~t­                                                    OFFICE OF AUDIT SERVICES
                                                           233 NORTH MICHIGAN AVENUE                   REGION V
                                                             CHICAGO, ILLINOIS 60601                   OFFICE OF
                                                                                                INSPECTOR GENERAL


                                                              September 3, 2008


        Report Number: A-05-08-00027

       Ms. Sandy Miler

       President
       National Governent Services
       8115 Knue Road
       Indianapolis, IN 46250

       Dèar Ms. Miler:



       Enclosed is the U.S. Department of 
 Health and Human Services (HHS), Office ofInspector
                                                       High Dollar Payments for Inpatient Services
       General (OIG), final report entitled "Review of 


       Processed by National Governent Services in Ilinois, Indiana, Kentucky, and Ohio for
       Calendar Years 2004 Through 2006 - Hospitals with Less Than 10 High Dollar Payments." We
       wil forward a copy of this report to the HHS action offcial noted on the following page for
       review and any action deemed necessary.

       The HHS action offcial wil make final determination as to actions taken on all matters reported.
       We request that you respond to this offcial within 30 days from the date of 

                                                                                     this letter. Your
       response should present any comments or additional information that you believe may have a
       bearing on the final determination.

                                    the Freedom ofInformation Act, 5 U.S.C. § 552, as amended by
       Pursuant to the principles of 


       Public Law 104-231, OIG reports generally are made available to the public to the extent the
       information is not subject to exemptions in the Act (45 CFR par 5). Accordingly, this report
       wil be posted on the Internet at http://oig.hhs.gov.

       If you have any questions or comments about this report, please donot hesitate to call me, or
       contact Steve Slamar, Audit Manager at (312) 353-7905 or through e-mail at
       Stephen.Slamar~oig.hhs.gov. Please refer to report number A-05-07-00027 in all
       correspondence.


                                                                   Sincerely,

                                                                 ~~/1 ~
                                                                   Marc Ò~fson
                                                                   Regional Inspector General
                                                                    for Audit Services


       Enclosure
Page 2 - Ms. Sandy Miler

Direct Reply to HHS Action Official:

Nanette Foster Reily, Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services

             OFFICE OF

        INSPECTOR GENERAL




    REVIEW OF HIGH DOLLA

    PAYMENTS FOR INPATIENT

    SERVICES PROCESSED BY

   NATIONAL GOVERNMENT

SERVICES IN ILLINOIS, INDIANA,

  KENTUCKY, AND OHIO FOR

    CALENDAR YEARS 2004

 THROUGH 2006 - HOSPITALS

    WITH LESS THAN 10 HIGH

       DOLLA PAYMENTS



             ~, SERVl('£S

                            Daniel R. Levinson
                             Inspector General
       (+"-l
        "'1- ::

        "'Jp.l/(ltd:ia
                             September 2008

                              A-05-08-00027
                             Offce of Inspector General

                                            http:// oig.hhs.gov





The mission of                Inspector General (OIG), as mandated by Public Law 95-452, as
                      the Offce of 


amended, is to protect the integrity of 

                                        the Deparment of 
 Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Offce of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance ofHHS programs and/or its grantees and contractors in carring out their
respective responsibilties and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Offce of Evaluation and Inspections
The Offce of 
Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
effciency, and effectiveness of deparental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations

The Offce of Investigations (01) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Deparent of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of 01 often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG's internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industr
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oia.hhs.aov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions wil make final determination on these matters.
                                  EXECUTIVE SUMMARY 


BACKGROUND 


Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people age 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare and Medicaid Services (CMS), which administers the
program, contracts with fiscal intermediaries to process and pay Medicare Part A claims
submitted by hospitals. The intermediaries use the Fiscal Intermediary Standard System and
CMS’s Common Working File to process claims. The Common Working File can detect certain
improper payments during prepayment validation.

Section 1886(d) of the Act established the prospective payment system (PPS) for inpatient
hospital services. Under the PPS, CMS pays hospital costs at predetermined rates for patient
discharges based on the diagnosis-related group (DRG) to which a beneficiary’s stay is assigned.
The “Medicare Claims Processing Manual,” Pub. No. 100-04, Chapter 3, section 10.1, requires
that hospitals submit claims on the appropriate forms for all provider billings, and Chapter 1,
section 80.3.2.2, requires that claims be completed accurately to be processed correctly and
promptly.

The DRG payment is, with certain exceptions, payment in full to the hospital for all inpatient
services. Section 6011 of the Omnibus Budget Reconciliation Act of 1989 (P.L. No. 101-239)
provides that PPS hospitals receive payment, in addition to the basic DRG payment, for blood
clotting factor administered to hemophilia inpatients. Also, section 1886(d)(5)(A)(ii) of the Act
provides for an additional payment, known as an outlier payment, to hospitals for cases incurring
extraordinarily high costs.

During calendar years (CY) 2004 through 2006, AdminaStar Federal was the fiscal intermediary
for Illinois, Indiana, Kentucky, and Ohio. AdminaStar Federal processed approximately 5.2
million inpatient claims during this period, 169 of which resulted in payments of $200,000 or
more (high-dollar payments). These high-dollar payments, totaling $63,502,261, were made to
hospitals that each received less than 10 such payments during our audit period. In January
2007, National Government Services assumed the business operations of AdminaStar Federal.

OBJECTIVE

Our objective was to determine whether high-dollar Medicare payments that National
Government Services made to hospitals for inpatient services were appropriate.

SUMMARY OF FINDING

Of the 169 high-dollar payments that the National Government Services made to hospitals for
inpatient services for CYs 2004 through 2006, 74 were appropriate. The remaining 95 payments
included net overpayments totaling $19,939,124. At the start of our audit, hospitals had:

   •   refunded overpayments totaling $19,263,785 for 2 claims and



                                                i
   •	 not refunded net overpayments totaling $675,339 for 93 claims.

Contrary to Federal guidance, hospitals inaccurately reported units of service, reported incorrect
charges that resulted in inappropriate outlier payments, or did not maintain supporting
documentation. Hospitals attributed most of the incorrect claims to data entry errors, insufficient
documentation to support charges, or a lack of documentation. National Government Services
made these incorrect payments because neither the Fiscal Intermediary Standard System nor the
Common Working File had sufficient edits in place to detect and prevent the inappropriate
payments.

RECOMMENDATIONS

We recommend that National Government Services:

    •	 recover the $675,339 in identified net overpayments,

    •	 use the results of this audit in its provider education activities related to data entry
       procedures and proper documentation, and

    •	 consider implementing controls to identify and review of all payments greater than
       $200,000 for inpatient services.

NATIONAL GOVERNMENT SERVICES COMMENTS

In its comments on our draft report, National Government Services agreed with our
recommendations. National Government Services comments are included in their entirety as the
Appendix.




                                                  ii
                                                 TABLE OF CONTENTS 



                                                                                                                          Page


INTRODUCTION..............................................................................................................1


          BACKGROUND .....................................................................................................1 

              Medicare Fiscal Intermediaries....................................................................1 

              Claims for Inpatient Services.......................................................................1 

              National Government Services ....................................................................2 


         OBJECTIVE, SCOPE, AND METHODOLOGY ....................................................2 

              Objective ......................................................................................................2 

              Scope............................................................................................................2 

              Methodology ................................................................................................2 


FINDING AND RECOMMENDATIONS.......................................................................3


          FEDERAL REQUIREMENTS................................................................................3 


          INAPPROPRIATE HIGH-DOLLAR PAYMENTS ...............................................4 


          CAUSES OF INAPPROPRIATE PAYMENTS .....................................................4 


          RECOMMENDATIONS.........................................................................................5 


          NATIONAL GOVERNMENT SERVICES COMMENTS ....................................5 



APPENDIX

          NATIONAL GOVERNMENT SERVICES COMMENTS




                                                                   iii
                                              INTRODUCTION 


BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people age 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare Fiscal Intermediaries

CMS contracts with fiscal intermediaries to, among other things, process and pay Medicare
Part A claims submitted by hospitals. The intermediaries’ responsibilities include determining
reimbursement amounts, conducting reviews and audits, and safeguarding against fraud and
abuse. Intermediaries use the Fiscal Intermediary Standard System and CMS’s Common
Working File to process hospitals’ inpatient claims. The Common Working File can detect
certain improper payments during prepayment validations.

In calendar years (CY) 2004 through 2006, fiscal intermediaries processed and paid
approximately 40.6 million inpatient claims, 8,287 of which resulted in payments of $200,000 or
more (high-dollar payments).

Claims for Inpatient Services

Section 1886(d) of the Act established the prospective payment system (PPS) for inpatient
hospital services. Under the PPS, CMS pays hospital costs at predetermined rates for patient
discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned. The DRG payment is, with certain exceptions, payment in full to
the hospital for all inpatient costs associated with the beneficiary’s stay. The “Medicare Claims
Processing Manual,” Pub. No. 100-04, Chapter 3, section 10.1, requires that hospitals submit
claims on the appropriate forms for all provider billings, and Chapter 1, section 80.3.2.2, requires
that claims be completed accurately to be processed correctly and promptly.

Section 6011 of the Omnibus Budget Reconciliation Act of 1989 (P.L. No. 101-239) provides
that PPS hospitals receive payment, in addition to the basic DRG payment, for blood clotting
factor administered to hemophilia inpatients. Also, section 1886(d)(5)(A)(ii) of the Act provides
for an additional Medicare payment, known as an outlier payment, to hospitals for cases
incurring extraordinarily high costs.1 The Medicare fiscal intermediary identifies outlier cases
by comparing the estimated costs of a case with a DRG-specific fixed-loss threshold.2 To
estimate the cost of a case, the fiscal intermediary uses the Medicare charges that the hospital
reports on its claim and the hospital-specific cost-to-charge ratio. Inaccurately reporting charges
could lead to excessive outlier payments.

1
 Outlier payments occur when a hospital’s charges for a particular Medicare beneficiary’s inpatient stay
substantially exceed the DRG payment.
2
 A DRG-specific fixed-loss threshold is a dollar amount by which the costs of a case must exceed payments to
qualify for an outlier payment.


                                                         1

National Government Services

During our audit period (CYs 2004 through 2006), AdminaStar Federal was the fiscal
intermediary in Illinois, Indiana, Kentucky, and Ohio. AdminaStar Federal processed
approximately 5.2 million inpatient claims during this period, 169 of which resulted in high-
dollar payments. These high-dollar payments, totaling $63,502,261, were made to hospitals that
each received less than 10 such payments during our audit period. In January 2007, National
Government Services assumed the business operations of AdminaStar Federal.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether high-dollar Medicare payments that National
Government Services made to hospitals for inpatient services were appropriate.

Scope

We reviewed the 169 high-dollar payments, which totaled $63,502,261, for inpatient claims that
National Government Services processed during CYs 2004 through 2006. We limited our
review to the high dollar payments that were made to hospitals that each received less than 10
such payments during our audit period. We limited our review of National Government
Services’ internal controls to those applicable to the 169 claims because our objective did not
require an understanding of all internal controls over the submission and processing of claims.
Our review allowed us to establish reasonable assurance of the authenticity and accuracy of the
data obtained from the National Claims History file, but we did not assess the completeness of
the file.

We conducted our fieldwork from December 2007 through May 2008. Our fieldwork included
contacting National Government Services and the hospitals that received the high-dollar
payments.

Methodology

To accomplish our objective, we:

   •	 reviewed applicable Federal laws, regulations and guidance;

   •	 used CMS’s National Claims History file to identify inpatient claims with high-dollar
      Medicare payments;

   •	 reviewed available Common Working File claim histories for claims with high-dollar
      payments to determine whether the claims had been cancelled or superseded by revised
      claims and whether payments remained outstanding at the time of our fieldwork;




                                               2

    •	 contacted the hospitals that received the high-dollar payments to determine whether the
       information reported on the claims was correct and, if not, why the claims were incorrect
       and whether the hospitals agreed that refunds were appropriate; and

    •	 validated with National Government Services that partial overpayments occurred and
       refunds were appropriate.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                               FINDING AND RECOMMENDATIONS

Of the 169 high-dollar payments that the National Government Services made to hospitals for
inpatient services for CYs 2004 through 2006, 74 were appropriate. The remaining 95 payments
included net overpayments totaling $19,939,124. At the start of our audit, hospitals had:

    •	 refunded overpayments totaling $19,263,785 for 2 claims and

    •	 not refunded net overpayments totaling $675,339 for 93 claims.

Contrary to Federal guidance, hospitals inaccurately reported units of service, reported incorrect
charges that resulted in inappropriate outlier payments, or did not maintain supporting
documentation. Hospitals attributed most of the incorrect claims to data entry errors, insufficient
documentation to support charges, or a lack of documentation. National Government Services
made these inappropriate payments because neither the Fiscal Intermediary Standard System nor
the Common Working File had sufficient edits in place to detect and prevent the inappropriate
payments.

FEDERAL REQUIREMENTS

The “Medicare Claims Processing Manual,” Pub. No. 100-04, Chapter 3, section 10.1, requires
that hospitals submit claims on the appropriate forms for all provider billings, and Chapter 1,
section 80.3.2.2, requires that claims be completed accurately to be processed correctly and
promptly.

Section 6011 of the Omnibus Budget Reconciliation Act of 1989 (P. L. No. 101-239) provides
that PPS hospitals receive an additional payment for the cost of administering a blood clotting
factor to Medicare beneficiaries with hemophilia during an inpatient stay.3 The payment is based
on a predetermined price per unit of clotting factor multiplied by the number of units provided.

3
 Section 6011(d) was amended by section 13505 of the Omnibus Budget Reconciliation Act of 1993
(P. L. No. 103-66) and section 4452 of the Balanced Budget Act of 1997 (P. L. No. 105-33) so that it is effective
for discharges occurring on or after June 19, 1990, and before October 1, 1994, and for discharges occurring on or
after October 1, 1997.


                                                         3

Section 1886(d)(5)(A)(ii) of the Act provides for Medicare outlier payments to hospitals, in
addition to prospective payments, for cases incurring extraordinarily high costs. CMS provides
for these additional payments, as specified in 42 CFR § 412.80, to hospitals for covered inpatient
hospital services furnished to a Medicare beneficiary if the hospital’s charges, as adjusted by the
hospital-specific cost-to-charge ratio, exceed the DRG payment for the case.

Section 1815(a) of the Act prohibits Medicare payment for claims not supported by sufficient
documentation. Medicare regulations at 42 CFR § 482.24 require hospitals to retain supporting
documentation for at least 5 years.

INAPPROPRIATE HIGH-DOLLAR PAYMENTS

National Government Services made 95 net overpayments totaling $19,939,124. Of this amount,
hospitals refunded $19,263,785 prior to the start of our audit, while $675,339 had not been
refunded. The following examples illustrate the inappropriate high-dollar payments:

    •	 Hospitals reported inaccurate blood clotting factor units administered to hemophiliacs
       resulting in overpayments totaling $19,298,615. For example, a hospital reported
       171,350 units instead of the correct 1,714 units. As a result, National Government
       Services paid the hospital $10,000,000 when it should have paid $471,907, a $9,528,093
       overpayment.

    •	 Hospitals reported incorrect charges for drugs, services, and supplies resulting in net
       overpayments totaling $392,987 in outlier payments. For example, a hospital reported
       excessive pharmacy charges of $10,860 for drugs on its claim. As a result, National
       Government Services overpaid the hospital $3,108 in outlier payments.

    •	 A hospital did not maintain any supporting records to substantiate one claim and 

       overpayment totaling $247,522. 


CAUSES OF INAPROPRIATE PAYMENTS

Hospitals attributed most of the incorrect claims to data entry errors, insufficient documentation
to support charges, or a lack of documentation. National Government Services made these
incorrect overpayments because neither the Fiscal Intermediary Standard System nor the
Common Working File had sufficient edits in place to detect and prevent the overpayments. In
effect, CMS relied on hospitals to notify the fiscal intermediaries of excessive payments and on
beneficiaries to review their “Explanation of Medicare Benefits” and disclose any
overpayments.4



4
 The fiscal intermediary sends an “Explanation of Medicare Benefits” notice to the beneficiary after the hospital
files a claim for Part A service(s). The notice explains the service(s) billed, the approved amount, the Medicare
payment, and the amount due from the beneficiary.



                                                          4

RECOMMENDATIONS

We recommend that National Government Services:

    •	 recover the $675,339 in identified net overpayments,

    •	 use the results of this audit in its provider education activities related to data entry
       procedures and proper documentation, and

    •	 consider implementing controls to identify and review all payments greater than
       $200,000 for inpatient services.

NATIONAL GOVERNMENT SERVICES COMMENTS

In its comments on our draft report, National Government Services agreed with our
recommendations. National Government Services comments are included in their entirety as the
Appendix.




                                                  5

APPENDIX 

APPENDIX 

